OIG Semiannual Report to Congress, No. 33
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
OIG Semiannual Report to Congress, No. 33
Letter to the Secretary
Inspector General's Message to Congress
Executive Summary
P.L. 95-452 Reporting Requirements
ABSTRACT 1:  Significant Audit and Audit-related Activities
ABSTRACT 2:  Significant Prosecutive Actions Resulting from OIG Investigations
ABSTRACT 3:  Initiatives Conducted in Response to Congressional Requests
Statistical Tables:
Recommendations Descibed in Previous Semiannual Reports on Which Corrective Action Has Not Been Completed
ED/OIG Reports on Education Department Programs and Activities
Inspector General Issued Reports with Questioned Costs
Inspector General Issued Reports with Recommendations for Better Use of Funds
Unresolved Reports Issued Prior to April 1, 1996
Statistical Summary
Glossary of Acronyms
Top
Printable view
Share this page
Last Modified: 02/24/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov